DOE/IG-0501




          AUDIT                  REMEDIATION AND CLOSURE
                                    OF THE MIAMISBURG
         REPORT                      ENVIRONMENTAL
                                   MANAGEMENT PROJECT




                                          MAY 2001



    U.S. DEPARTMENT OF ENERGY
   OFFICE OF INSPECTOR GENERAL
     OFFICE OF AUDIT SERVICES
                                    DEPARTMENT OF ENERGY
                                       Washington, DC 20585

                                                May 2, 2001


MEMORANDUM FOR THE SECRETARY

FROM:                 Gregory H. Friedman (Signed)
                      Inspector General

SUBJECT:              INFORMATION: Audit Report on "Remediation and Closure of the
                      Miamisburg Environmental Management Project"

BACKGROUND

With the end of the cold war, the Miamisburg Environmental Management Project (MEMP),
formerly known as the Mound Plant, was transferred by the Department of Energy
(Department), from Defense Programs to Environmental Management. The emphasis at MEMP
is now accelerated cleanup and transition of facilities and property to the local community.
Congress requires the Department to request adequate funding to keep the project on schedule
for closure by 2006 or earlier. Under these provisions, any savings resulting from the
accelerated closure of the MEMP can be retained and used for cleanup activities at other
Department closure sites.

In August 1997, the Department awarded a cost-plus-award-fee contract to BWXT of Ohio, Inc.
(BWXTO) for remediation and closure of the MEMP. BWXTO was awarded the contract based
on its technical superiority over other bidders. The contract required BWXTO to complete
remediation, transfer the site to the community, and exit the site no later than September 30,
2005, at an estimated cost of $427 million. As of January 31, 2001, BWXTO had incurred
$306.9 million for the project.

The objective of the audit was to determine whether BWXTO is on schedule to complete
remediation and exit the site no later than September 30, 2005.


RESULTS OF AUDIT

We found that under BWXTO's current schedule, it will not meet the cost and schedule
provisions of its contract with the Department. In fact, the latest estimate for project completion
is December 2009. MEMP will not be closed on schedule because the Department and BWXTO
committed to a project completion date without knowing whether the date was achievable. The
date was established with limited knowledge of soil and building contamination at the site. In
addition, BWXTO did not develop a valid baseline to effectively manage the project.
Consequently, the estimated cost to complete the closure of MEMP has grown from $427
million to over $1 billion, including $148 million in infrastructure costs to keep the site open
through 2009. As a direct consequence of the overall delay in completion of remediation
activities, the MEMP facilities will not be made available for commercial use in October 2005 as
planned.
                                               2



MANAGEMENT REACTION

Management concurred with the finding and recommendations and initiated corrective action.
Management stated that despite schedule growth due to scope changes, and changes in funding
assumptions, the site is still expected to close several years ahead of the original timeframe
(2025) under original cost estimates ($3.1 billion). We acknowledge that scope modifications
and the limited knowledge of contamination levels have contributed to the changes in schedule
and cost. Although Management stated that funding assumptions changed, it provided no
evidence that funding received was significantly less than was anticipated in the contract.

Attachment

cc:    Acting Assistant Secretary for Environmental Management
REMEDIATION AND CLOSURE OF THE MIAMISBURG
ENVIRONMENTAL MANAGEMENT PROJECT

TABLE OF
CONTENTS



               Overview

               Introduction and Objective ..........................................................1

               Conclusions and Observations.................................................. 1


               Remediation Is Behind Schedule

               Details of Finding.......................................................................3

               Recommendations and Comments ...........................................5


               Appendix

               Scope and Methodology.............................................................8
OVERVIEW

INTRODUCTION AND   The Miamisburg Environmental Management Project (MEMP),
OBJECTIVE          formerly known as the Mound Plant, is a Government-owned,
                   contractor-operated facility located on about 306 acres in Miamisburg,
                   Ohio. With the end of the Cold War, the facility was transferred from
                   Defense Programs to Environmental Management, with emphasis on
                   accelerated cleanup and transition of facilities and property to the local
                   community. The Department of Energy (Department) plans to redirect
                   the site's advanced manufacturing capabilities and facilities to the
                   private sector for commercial use.

                   Congress has provided funding to the Department for the accelerated
                   cleanup and closure of the MEMP. Specifically, Congress requires that
                   the Department request adequate funding to keep the project on
                   schedule for closure by 2006 or earlier. Congress intended for any
                   savings resulting from early closure of the MEMP to be retained and
                   used for cleanup activities at other closure sites.

                   In August 1997, the Department's Ohio Field Office awarded a cost-
                   plus-award-fee contract to BWXT of Ohio, Inc. (BWXTO) for the
                   remediation and closure of the MEMP. BWXTO was awarded the
                   contract based on its technical superiority over other bidders. The
                   request for proposals encouraged bidders to complete the project in the
                   shortest achievable timeframe, and required that the site be remediated
                   and transferred to the Miamisburg Mound Community Improvement
                   Corporation no later than September 30, 2005. The contract required
                   completion and exit no later than September 30, 2005, at an estimated
                   cost of $427 million.

                   The objective of the audit was to determine whether BWXTO was on
                   schedule to complete remediation and exit the site no later than
                   September 30, 2005, as required by the contract.

CONCLUSIONS AND    BWXTO was not on schedule to complete remediation and exit the site
OBSERVATIONS       by September 30, 2005. In fact, BWXTO's latest estimate to complete
                   the project was December 2009. The September 2005 deadline will not
                   be met because the Department and BWXTO committed to a project
                   completion date without knowing whether the date was achievable.
                   Additionally, BWXTO did not develop a valid baseline to effectively
                   manage the project. As a result, the estimated cost to complete the
                   project has grown from $427 million to over $1 billion, including
                   $148 million in infrastructure costs to keep the site open through 2009,




Page 1                                                       Introduction and Objective/
                                                          Conclusions and Observations
         and the facilities will not be made available for commercial use in
         October 2005 as planned.

         Three prior Office of Inspector General audits have identified similar
         concerns. Report DOE/IG-0489, Americium/Curium Vitrification
         Project at the Savannah River Site, determined that the Department
         committed to stabilizing its Americium/Curium solution by September
         2002, without knowing whether the date was achievable. Also, Report
         DOE/IG-0456, Management of Tank Waste at the Department's Hanford
         Site, concluded that the Department did not have a valid baseline for
         managing the project. In addition, Report DOE/IG-0476, Best Practices
         for Environmental Management Baseline Development, highlighted
         instances of baselines that were incomplete, contained duplicate costs,
         were not properly updated, or contained outyear costs that were not
         supported.

         This audit identifies significant issues that management should consider
         when preparing its yearend assurance memorandum on internal controls.




                                                         Signed
                                               Office of Inspector General




Page 2                                          Conclusions and Observations
REMEDIATION IS BEHIND SCHEDULE

BWXTO Was Not on        BWXTO was not on schedule to complete remediation and exit the site
Schedule to Close the   by the September 30, 2005, date, as required in its contract with the
Site                    Department. In fact, as of the date of completion of our field work,
                        BWXTO had a target completion date of December 2009, four years
                        beyond the completion and exit dates in the contract and almost seven
                        years beyond BWXTO's commitment in its final bid proposal. Further,
                        under the current BWXTO target schedule, total costs will increase to
                        an estimated $1.1 billion.

                        In addition to its target schedule, BWXTO has developed other
                        scenarios with possible project closure dates, depending on the level of
                        funding and various site operating assumptions. For example, one
                        scenario would yield a December 2006 completion date, assuming
                        unconstrained funding and changed practices across the site.
                        Specifically, tritium release limits would be increased ten-fold. This
                        scenario increases the estimated total costs to $958 million. Another
                        example would assume level funding at around $90 million with no
                        change in site operating procedures. This scenario would result in a
                        December 2018 completion date and increase total project costs to over
                        $2 billion.

Congress Expects the    Congress provides funding to the Department for the accelerated
Site to be Closed By    cleanup and closure of the MEMP. Specifically, Public Law requires
2006                    the Department to request adequate funding to keep the project on
                        schedule for closure by 2006 or earlier. Congress intended for any
                        savings resulting from early closure of the MEMP to be retained and
                        used for cleanup activities at other closure sites.

                        In accordance with the Government Performance and Results Act of
                        1993, the Department's Annual Performance Plan for Fiscal Year (FY)
                        2001 states that the project will be completed by 2006, and BWXTO's
                        contract requires completion by September 30, 2005, based on funding
                        of $92 million per fiscal year.

Commitment Was Made     The September 2005 deadline will not be met because (1) the
Without Sufficient      Department and BWXTO committed to a project completion date
Planning                without knowing whether the date was achievable, and (2) BWXTO did
                        not develop a valid baseline to effectively manage the project.

                                                Insufficient Knowledge

                        In August 1997, the Department committed to the September 2005
                        deadline without knowing whether the deadline was achievable. The
                        Department established the deadline with limited knowledge of soil and

Page 3                                                                       Details of Finding
         building contamination at the site. The Department is not using the
         traditional Comprehensive Environmental Response, Compensation
         and Liability Act (CERCLA) approach to characterize the nature and
         extent of contamination at its closure sites. Under the CERCLA
         approach, the Department would perform samples, tests, and
         investigations to identify the nature and extent of contamination at
         the site and recommend a preferred course of action for regulatory
         agencies' approval before any remedial work would begin. At the
         MEMP, the Department relies on a team of representatives from the
         Department and Federal and state environmental protection agencies
         to evaluate potential site contamination and recommend the
         appropriate course of remedial action as the remediation of facilities
         progresses. While this new approach may allow cleanup to begin
         sooner than it would have using the traditional approach, it limits the
         Department's ability to plan and anticipate problems during the
         actual site cleanup. At the time the contract was awarded, 407
         potential contamination sources had been identified. However, as of
         February 2001, BWXTO had identified 31 additional potential
         contamination sources. Had the traditional CERCLA approach been
         used, the Department might have identified the 31 additional
         contamination sources before cleanup began.

         Also, an independent consultant reported in 1999 that the existing
         characterization information for contaminated buildings primarily
         consisted of a historical compendium of information derived from
         documentation and interviews with current and past personnel with
         limited physical sampling and analysis. The report stated that
         practically no subsurface sampling data existed for soils beneath the
         buildings considered highly contaminated. The report warned that
         considerable uncertainty existed regarding the nature and extent of
         soil contamination, and that the volume of soil requiring removal or
         treatment could be significantly higher than anticipated.

                                  Inadequate Baseline

         BWXTO's original baseline submittal could not be validated because
         it was based on outdated and inaccurate information. The U. S.
         Army Corps of Engineers' review team observed that the original
         baseline document, submitted for validation 105 days after contract
         award, essentially represented the information contained in the
         contractor's best and final offer, and was not updated to reflect site
         conditions the contractor was aware of after the award. In fact,
         BWXTO project managers considered the original baseline submittal


Page 4                                                      Details of Finding
                            out-of-date, inaccurate, and of little or no value as a management
                            tool.

                            BWXTO resubmitted its baseline for validation in July 1998. Once
                            again, the baseline could not be validated, in part, because numerous
                            findings previously identified by the U.S. Army Corps of Engineers
                            were only partially addressed or not addressed at all. Further, the
                            baseline lacked backup and support for cost estimates.

                            BWXTO's final baseline submittal was not validated until December
                            1998, about 15 months after the contract was awarded. Then, about
                            six months after the baseline was validated, BWXTO and MEMP
                            acknowledged that three segments of the critical path were already
                            behind the baseline schedules.

                            In June 1999, BWXTO submitted a recovery schedule for the critical
                            path to the Department. In July 1999, the Department evaluated this
                            recovery schedule and determined it to be inadequate. The
                            Department noted that the recovery plan was not resource loaded,
                            cost data was not sufficient to conclusively determine the feasibility
                            of the plan, and it was based on aggressive assumptions. As of
                            February 2001, the Department and BWXTO were still in the
                            process of negotiating the terms of a baseline change proposal to
                            address these critical issues. The proposal was estimated to increase
                            the cost of the project to over $1 billion dollars and extend the
                            scheduled date of completion to December 2009 or beyond.

Additional Funding Needed   As a result of not meeting its September 2005 commitment for site
for Site Closure            closure, the estimated cost to complete the project has grown from
                            $427 million to over $1 billion, including $148 million in
                            infrastructure costs to keep the site open through 2009, and the
                            facilities will not be made available for commercial use in October
                            2005 as planned.

RECOMMENDATIONS             We recommend that the Deputy Assistant Secretary, Office of Site
                            Closure:

                               1. Determine the most realistic completion date and level of
                                  funding necessary to complete remediation, and notify
                                  Congress; and,

                               2. Ensure that projected completion dates and funding requests
                                  for future projects are based on a current, accurate, and
                                  complete baseline.

Page 5                                                     Recommendations and Comments
                      We recommend that the Manager, Ohio Field Office:

                         1. Require BWXTO to prepare a complete and accurate baseline
                            that reflects current site conditions and assumptions, and
                            submit it for Departmental review as soon as possible;

                         2. Ensure that baseline change proposals are submitted,
                            evaluated, and approved in a timely manner; and,

                         3. Use cost and schedule baselines to establish performance
                            measures for evaluating contractors' performance.

MANAGEMENT REACTION   Management concurred with the finding and recommendations and
                      agreed to initiate corrective actions. Management stated that
                      BWXTO is developing a revised baseline to reflect current site
                      conditions, project scope, and assumptions. The revised baseline is
                      due to the Department for review and validation by June 2001. The
                      revised baseline will be evaluated and acted upon in a timely
                      manner. Once the baseline is properly reviewed and validated, the
                      Department will notify Congress of the new completion date and the
                      reasons therefor.

                      Management stated that the report does not accurately summarize the
                      current status of cleanup nor some of the major root causes that lead
                      to the current baseline status. In 1995, the MEMP contract was
                      selected to be prototypical of Department contracts in relation to
                      closure sites. As such, the Department's policy was to challenge
                      conventional plans, despite major areas of uncertainty, in order to
                      streamline the cleanup so that land and buildings could be returned to
                      productive use. Despite schedule growth due to scope changes, and
                      changes in funding assumptions, the site is still expected to close
                      several years ahead of the original timeframe (2025) under original
                      cost estimates ($3.1 billion). Significant visible progress has been
                      achieved that includes demolishing, removing, or transferring over
                      40 percent of the buildings to the Miamisburg Mound Community
                      Improvement Corporation (MMCIC). Within a few months, 43
                      percent of the land will have been transferred to MMCIC. The
                      Department has learned valuable lessons from the MEMP contract
                      experience.

AUDITOR COMMENTS      Overall, management's comments were responsive to the finding and
                      recommendations. Although management stated that funding
                      assumptions changed, they provided no evidence that funding
                      received was significantly less than what was anticipated in the

Page 6                                               Recommendations and Comments
         contract. While we acknowledge that changes in scope have
         increased the project's schedule and cost, the limited knowledge of
         contamination levels contributed to the increases.

         We agree that progress has been made in areas with minimal
         contamination and easily removed legacy waste. However, the
         buildings and land that have been, or will shortly be, transferred do
         not include any of the contaminated buildings and soils on the
         project's critical path.




Page 7                                  Recommendations and Comments
Appendix

SCOPE         The audit was performed from August 7, 2000, to February 20, 2001, at
              the Ohio Field Office and Miamisburg Environmental Management
              Project (MEMP) in Miamisburg, Ohio, and Department headquarters in
              Washington, D.C. The scope of the audit included costs incurred at the
              MEMP between August 1997 and February 2001.

METHODOLOGY   To accomplish the audit objective, we:

              •   Examined the terms and conditions in the Department's contract
                  with BWXT of Ohio, Inc. (BWXTO);

              •   Reviewed funding for the Defense Facility Closure Projects;

              •   Reviewed baseline validation reports prepared by the U.S. Army
                  Corps of Engineers regarding the MEMP baseline;

              •   Evaluated compliance with the Government Performance and
                  Results Act of 1993;

              •   Reviewed Independent Review and Assessment of the Miamisburg
                  Environmental Management Project, prepared by Hill International;

              •   Analyzed infrastructure costs projected for the project from FYs
                  2006 through 2010; and,

              •   Interviewed Departmental and contractor personnel regarding the
                  status of the MEMP remediation project.

              The audit was performed in accordance with generally accepted
              government auditing standards for performance audits and included test
              of internal controls and compliance with laws and regulations to the
              extent necessary to satisfy the audit objective. Accordingly, the
              assessment included reviews of costs incurred on the project from
              August 1997 through February 2001. Because our review was limited,
              it would not necessarily have disclosed all internal control deficiencies
              that may have existed at the time of the audit. Computer processed data
              was not used, and therefore, we did not perform any tests on the data.

              Management waived an exit conference.




Page 8                                                     Scope and Methodology
                                                                               IG Report No. :DOE/IG-0501

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
